20° 17

No. 21-

FILED
JUN o I 2021

In The

Supreme (Emirt tff %

States

Symon Mandawala.,
Petitioner,
v.

Era Living LLC.,
Respondents.

On Petition for a Writ of Certiorari to
the Washington State’s Supreme Court

PETITION FOR A WRIT OF CERTIORARI

Symon Mandawala
P.O. Box 5512
San Antoni, TX 78201
(206) 631-5636
Petitioner Pro-se

RldiVEBJUN 11I 2021

gcagaagffy

1

QUESTIONS PRESENTED
The Question(s) Presented is^
As of Matter of Equal Protection Clause in the
14th Amendment right of the U.S constitution^
(l)(a) while racially civil rights action is pending,
without advisory to the court (court order), can a
corporate
defendant and their representatives
(attorneys) demand reservice of the process to the
plaintiff with the threat of untimely motion to dismiss
without violating 42 U.S.C 1985(2) last clause?
(b)
Does
attorney-client
or
conspiracy
intercorporation doctrine defenses apply to 42 U.S.C
1985(2) last clause pursuing to its criminal elements of
“impeding, hindering, obstructing, or defeating, in any
manner, the due cause of justice in any state” as
federally classified as criminal in 18 U.S.C 1505 and
3512?
As of matter of Due Process Clause in the 14th
Amendment right of the U.S constitution^

t

l

(2)(a)Does a trial judge have the discretion to deny
Plaintiff a one-time Amendment of a complaint or the
service of process when the defendant has not to file
responsive pleading (answer)yet?
(b) Where the state court rule designates insufficient
service defense to be presented within 20days after the
service of process. Does a defendant file notice of
appearance to the court toll the 20 days rule to 124 days
for the defendant to file a motion to dismiss under that
rule?

11

CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6 of this Court’s Rules, the
petitioner is not a corporation, neither owns 10% or more
of any entity stocks.

i
1

it

}
A

j

Ill

TABLE OF CONTENTS
QUESTION PRESENTED

.. 1

CORPORATE DISCLOSURE STATEMENT ....ii
TABLE OF AUTHORITIES

v

PETITION FOR A WRIT OF CERTIORARI..... 1
OPINIONS BELOW

1

JURISDICTION

1

STATEMENT

1

REASONS FOR GRANTING THE WRIT

10

I. Washington state courts erroneously views out
-of-court intimidation to civil rights pro-se plaintiff
by the corporate defendant and their attorneys as
courteous legal help to Plaintiff dangerously
undermine the purpose (protection) and the spirit of
42 U.S.C. 1985(2) and 18 U.S.C. 3521
6
II. Washington State Courts' view of the court has
the discretion to deny the plaintiff a right to Amend
the complaint or process even when the defendants
do not file an answer. It contradicts almost all
federal circuit court rulings on the similar matter
and to their own Washington State superior court
rule 4(h)...........................................................
10
III. The Washington State Court Rules are
privilege, exempting or not apply to some corporate
defendants such as Era Living LLC, and allowed
untimely of filing motion to dismiss despite
Washington State Court Rule 12 has a 20‘day time
limit(Allowing Wait Then Ambush)
13
CONCLUSION

16

IV

APPENDIX..........................................................................
APPENDIX A, Wash..Court of Appeals Decision ... .1*°APPENDIX B, Wash..Superio Court’s Decision.......
APPENDIX C, Order Denying Petition for Review by
Washington State Supreme Court..
APPENDIX D, A threating letter to Petitioner from
Respondant as a support evidence to
the motion to Dismiss (Appx B)........

V

■«:

TABLE OF AUTHORITIES
Cases
Allen v. Veterans Admin..
749 F.2d 1386, 1388 (9th Cir 1984)
Dussouv v. Gulf Coast investment Corp.,
660 F.2d 594, 603 (5th Cir. 1981)
Griffin v. Breckenridge..
403 U.S. 88, 102 (1971)
Hanratv v. Ostertag..
470 F.2d 1096, 1097(l0th Cir. 1972)
Howiett v. Rose..
496 U.S. 356, 361-383(1990)
5,7
Marcial Ucin, S.A. v. SS Galicia..
_723 F.2d 994,996-97 (1st Cir 1983)
Manning v. Epps..
688 F.3d 177, 183 (5th Cir 2012)
Mayes v. Leipziger..
729 F.2d 605,-607 (9th Cir 1984)
McAndrews v. JA Blackwell Jr.. T.A. Graham, et al..
177 F.3d 1310 (11th Cir. 1999)
Me Gruder v. Phelp.,
608 F.2d 1023, 1025 (5th Cir. 1979)
Miller v. American Export Lines, inc..
313 F.2d 218 n.l(2d Cir. 1963)
Norlock v. City of Garland.
768 F.2d 654, 658 (5th Cir. 1985)
Santos v. State Farm Fire and Cas. Co.
902 F.2d 1092 (2d Cir. 1990
Sinwell v. Shan.
536 F.2d 15 (3d Cir 1976)
Thomas v. Home Depot USA Inc. No..
C06-02705 (N.D. Cal. Jul. 25, 2007)
Trustee of central laborers’ Welfare fund v. lowerv.
924 F.2d 731, 732, rev, denied.
US v. Ames Sintering Co..
927 F.2d 232, 236 (6th Cir. 1990)

11
9
5
11

15
15
12
8
11
11
13
14
14
11
15
9

Vi

US v. Hugh Chalmers Chevrolet'Tovota. inc..
800 F.2d 737, 738 (8th Cir. 1986)
21
US v. Hughes Aircraft Co..
20 F.3d 974, 978-79 (9th Cir. 1994)
9
US v. Peters..
732 F.2d 1004, 1007-08 (1st Cir. 1984)
9
US v. S Vee Cartage Co .
704 F.2d 914, 920 (6th Cir 1983)
21
U-S. v. Riggs..
314 F.3d 796, 799 (5th Cir 2013)
15
US v. Tison H. Claude ir.,Marcelino Echevarria
and Scan realty Service, inc..
780 F.2d 1567 (11th cir. 1986)
8, 15
US v. Ziegler Bolt & Parts Co..
Ill F.3d 878, 882 (Fed.Cir.1997)
15
Williams v. Board of Regents of University
System of Georgia..
477 F.3d 1282, 1292 (11th Cir. 2007)
10
Yeldell v. Tutt..
913 F.2d 533, 539 (8th Cir. 1990)
15
Constitution and Statutary
The U.S. Constitution
14th Amendment -Equal Protection
14th Amendment -Due Process
Federal Statute42 U.S.C 1985(2)
Passism
42 U.S.C 1985(3)
Passism
18 U.S.C 876, &3512
Passism
State StatuteRWC49.60.180

19
Rules and Regulations

Federal:
Fed.R.Cv.P 7
Fed.R.Cv.P 8

15
15

Vii

Fed.R.Cv.P 15
Fed.R.Cv.P 12(b)6
Washington State Court Rules:
CR4(h)
CR 12(a)
CR 12(b)
CR12(b)5

16
Passism
Passism
Passism
Passism
Passism

1

PETITION FOR A WRIT OF CERTIORARI
Petitioner respectfully seeks a writ of certiorari to
review the order to dismiss Mandawala’s state racial civil
rights complaint Affirmed by Washington State Court of
Appeals and denial of the Petition for Review by
Washington State Supreme Court.
OPINIONS BELOW
The opinions below is unpublished one. The opinions
respecting Symon Mandawala v. Era Living Lie,
80543-6(Wash. Ct.App 2020)
JURISDICTION
The Washington State Court of Appeals entered the
Affirming dismissal on November 2, 2020 and Washington
State Suprem Court denied a Petition for Review on
March 2, 2021 In which 42 U.S.C 2000e was claimed to be
violated and the state appropriet agencey gave the right to
sue notice. The Court has jurisdiction under 28 U.S.C.
§1254(1) and or providing binding instructions §1254(2).
STATEMENT
Petitioner, Symo Mandawala, was an
employee of the defendant ERA LIVING AT
ALJOYA from October 29, 2012, until May 3, 2016.
Symon's conduct was good during his tenure of
employment until his constructive discharge. Even
as diligent and hard-working as he was, his work
became dangerous to his safety and unattainable.
Mandawala is a former employee of the responding
corporation Era Living LLC. This case arose from
incidents that happened when Mandawala was
working at one of the Era Living business facilities,
namely Aljoya Thornton Place near Northgate Mall,
Seattle, Washington State. Era Living LLC hired
Mandawala on October 10, 2012, and his job was
wrongfully terminated on May 3, 2016, that he

2

received
unemployment
benefits
from
the
Department of Unemployment in Washington State.
The discrimination events in Mandawala’s
complaint were ongoing and per the statute of
limitation. The first incident happened on February
8, 2016, where his coworkers subjected him to
segregated work conduct and racially employment
promotions of white employees. The second event
happened around March 11, 2016, whereby
Mandawala was looking for urgent medical
attention. The Manager at the time, Mr. Dennis
Newman Jr, refused to allow Mandawala to get
medical attention. However, the same Manager
allowed white coworkers of Mandawala, namely
Wendy, white and female, the other one Tony white
male, to take the day off for a cold. This was the same
morning when those two white coworkers,
Mandawala, were allowed to have a day off while
Mandawala was denied urgent and immediate
dental care. Another event happened around April
22, 2016; this time, the same Manager who denied
Mandawala medical attention decided to give a task
to clean the Exhausting kitchen system. Mandawala
has never been tasked before. Era Living has been
hiring the third-party licensed and professionals
Exhaust Air System cleaner per Seattle city
commercial building and safety code 2015, section
609.1-4. It was the first time for Mandawala to do
such higher voltage electric system cleaning work,
and he was severely injured that he is still struggling
with the effect of the injury.
Before Mandawala’s injury, two separate former
Era Living employees unlicenced, not professions,
were already severely injured for just simply trying
to wipe out grease from the equipment. One was a
former Executive Kitchen Manager (Jace Brettner)

3

who was replaced by Mr. Newman Jr., who had a
high voltage shock in his head while trying to wipe
out oil licking from the system's light. Mr. Brettner
and Mr. Newman Jr. Worked together before and
were even friends outside work, and Mr. Newman
was known and told about how severely Mr. Brettner
was injured. The second injury was a dishwasher
(Mr. Charly White) who voluntarily tried to clean the
same Exhusting system, and he fell and injured his
back. As noted, these injuries were before
Mandawala’s injury. It is undisputed that Era Living
LLC had knowledge of the equipment causing
injuries and ignored that knowledge to order
Mandawala to clean the system that ended up
causing him injured. The Washington laws prohibit
deliberately caused injuries of employees and are
actionable under (RCW 51.24.020).
After two years of medical treatment from the
hip injury sustained while working at Era living,
Mandawala filed a lawsuit in Washington State
Superior Court in Seattle on February 4, 2019. Since
his injury, Mandawala lives in Texas, where his
relatives were nursing his injury and worked there.
Mandawala first attempted to serve Era Living
through Friend as an in-person service of
process(Mr. Lobole). His friend was frustrated after
Mr. Lobole was told to wait for someone to pick the
court papers at the front desk of Era hving home
office. The process server left the paper at the front
desk of Era Living office downstairs, and other court
paper copies were sent through regular mail to
support in-person service under Washington state
court rule 4(d)4,4(e.).
The unavailability of Mr. Lobole’s declaration on
his in-person service was due to his relocation to east
Africa for Jehovah's witness churches to rebuild its
damage by wind disaster, Mandawala reserved the

4

Era Living again, this time by Certified Mail return
receipt requested. The March 25, 2019 return
receipt, in which the envelope was shown to Trial
Court, arrived as the date on the return receipt and
was signed by Era Living as an affidavit to support
their motion to dismiss. On April 10, 2019,
Era-Living made an appearance to the court.
While the case was pending on April 22, 2019,
without filing advisory to the court, Era Living seeks
Mandawala to reserve the process because the
Mailed envelope did not designate Era Living's
internal Principal officer to receive the court papers.
The Era Living's counsel, directly without the Trial
Court’s consent, told Mandawala that the service he
made should be approved in Washington State. If he
does not re-service within ten days (which is May 2),
Era Living intends to file a motion to dismiss, (see
Appendix D). Take a note at this time the responding
or raising a defense of insufficient service of process
time of 20 days under Washington state court
already passed with nine days.
While the case was pending on April 22, 2019,
without filing advisory to the court, Era Living seeks
Mandawala to reserve the process because the
Mailed envelope did not designate Era Living's
intenal Principal officer recieve the court papers. The
Era Living's counsel directly without the Trial
Court’s consent told Mandawala that the service he
made should be approved in Washington State. If he
does not re-service within ten days (which is May 2),
Era Living intends to file a motion to dismiss, (see
Appendix D). Take a note at this time the responding
or raising a defense of insufficient service of process
time of 20 days under Washington state court rule
12(a) already past with nine days.
Without an attorney-client relationship or
court-appointed counsel approved, this legal advice

5

was
no
attorney client-relationship
between
Mandawala and Era Living counsel. Neither
Mandawala seeks Era living counsel any pro-bono
legal help. Mandawala was a party having opposite
interests in what Counsel for Era Living is for in the
case. Much more, whatever Era Living counsel
brings on litigation, is in their client's best interest,
Era Living, not Mandawala. Still, both Appeals
Court and Trial Court did not see how inappropriate
(see Appendix E at 28) it is to provide legal advice to
the opposite party or intimidate Plaintiff as Exhibit
F was shown. The trial court went even on record to
praise Era Living's counsel that she volunteered to
advise Mandawala(see Appendix E at 28). the trial
court views this as Legal Samaritan(pro-bono
information) see Attached Affidavit.
After 124 days, and April 10, 2019 Era Living
return receipt, then April 22, 2019, without court
advisory or consent to provide legal advice to the
opponent of their client, on July 26, 2019, Era living
filed(see Appendix D) a motion to dismiss for
insufficient of service of process, it was 110 days
from the date Era Living made an appearence in
court.
The court was notified about deficiency in service
of process on August 23, 2019 at the hearing more
that 130 day by Era Living for the first time, and
denied requeat by Mandawala to exercise its
discretion as stated in Washington State Superior
Court Rule 4(h) and the case was dismissed.
Mandawala timely filed a notice of appeal to the
Washington State Court of Appeals in division 1 and
the court affirmed the Trial Court dismissed the case
Appedix A. The Washington State court of Appeals
further raised a conflict view that the service of
process is strictly and cannot be amended
contradicting to their own Washington State Court

6

Rule(h) Appidix A provides that the court can order
any process of service to be amended.
The out of court interaction by Era Living direct
to Mandawala is federally prohibited and can be
sued as conspirancy to intimidate civil rights
litigant. Considering that this court said section
1985 congress intended to protect the caurse of civil
rights justice when added “equal protection” to the
statute not a federal law tort. Griffin v.
Breckenridge, 403 U.S. 88. 102 (1971) the state
court is bounded by the statute to provide
enforcement and protection to civil rights litigants.
See Howlett v. Rose. 496 U.S. 356 (1990) Id. At
361~383 Despite a lawsuit jurisdiction made it
absolutly to be in hands of federal district court, see
28 U.S.C § 1343
Thus, when Mandawala raised the federal
question to Washington state Court of Appeal
through reply to response brief and in details again
to the Washington State Supreme Court as issue of
Petition for Review and the Washington State
Supreme court Denied to Review Mandawala’s
timely petition.
It is why this court as the highest court in this
land is requested to clarify and review the
disregarded federal issues by all Washington State
court. This court opinion will set appropriet direction
regarding the state courts that are setting new rules
to coporations that are violating the United States
Consitution rights of the citizens.
REASONS FOR GRANTING THE WRIT
This is as straight forward a certiorari candidate as
any civil rights case that has significance to the U.S
constitution can be. It is manifestly important: A host of
Federal appellate judges, civil rights scholars, and legal
practitioners, upon seen the opinion, have stressed that

7

the result below is untenable - invalidating previously
irreproachable due causes of civil rights proceedings and
precipitating what State Judge Loura Inven (retired) and
State Appallet Judge Dwyer called “a new crisis of civil
rights law and integrity of judicial proceedings.”
Corporations will not abide by the court rules, and the
court is powerless but accepting anything from corporate
as lawful, even intimidating pro-se or harassing them.
This is an indirect fall of the law, especially federal law,
in-state judges' hands.
WASHINGTON STATE COURTS ERRONEOUSLY VIEWS OUT OF
COURT INTIMIDATION OF CIVIL RIGHTS PRO-SE PLAINTIFFS AS
COURTEOUS LEGAL HELP TO PLAINTIFFS, DANGEROUSLY
UNDERMINE THE PURPOSE (PROTECTION) AND THE SPIRIT OF 42
U.S.C 1985(2) AND 18 U.S.C 3521

Both Washington state court of appeals and
Trial court incorrectly viewed the Era Living
counsel's letter demand of re-service of process
exhibit E direct to Mandawala without seeking the
court order as a courteous or help to Mandawala.
See (Appedix A and E at 28). Such undermines the
purpose and spirit of the federal statute 42 U.S.C
1985 (2) last clause. That prohibits any conspiracy
to impede in any manner whether it was courteous
or not as long as the result of such conspiracy
defeated the normal cause of justice is a violation of
section 1985(2). Although the jurisdiction of a
lawsuit under section 1985(2) is in the federal
district court's hands, the application of prohibition
or protection is for both state and federal courts.
Pursuing to the US Supreme Court precedent in
Howllet v. Rose (2000)Id said that if the State has
similar law as the federal one, the State Court
should exercise the protection as it could be in
Federal court. See Howlett v. Rose, 496 U.S. 356
(1990) Id. At 361-383 (the court applied the U.S
Constitution Article VI, clause 2). Mandawala’s

8

i*

complaint, in this case, alleged that he was subject
to racial and other federally and Washington
state's indifferent work conditions compared to
white coworkers. Mandawala claimed Federal Act
of civil rights Title VII and RCW 49.60.180 (3) in
his state complaint.
Mandawala state complaint pleaded that his
former manager subjected him to indifferent racial
working conditions. When the manager allowed the
white female coworker named Wendy to seek
medical attention but refused to allow Mandawala
at the same time, who was in severe pain the same
time, to seek urgent dental attention the same day.
See Mandawala v. Era Living complaint.
The Federal statute 42 U.S.C. 1985(2) last
clause requires “racial” or “class-based animus” as
the same as it likes to sister statute 42 U.S.C.
1985(3) pursuing to U.S. supreme court in Griffin
Id at 88, 102 (1971) because of wording equal
protection.Grinffin court Id at 88-100, said it does
not also require a plaintiff to file a (section
1985(2))(original 1985(3) statute substituted)
lawsuit. Specifically for section 1985, the court
should protect the statute as its purpose is to
protect civil rights litigants rather than federal tort
law.
Era Living and their attorney directly
contacted Mandawala without a court order, and
who is racially grieved plaintiff, and demanded
re-service of the process with the threat of
untimely motion to dismiss if Mandawala would
not comply with the demand. Both attorney and
their client (Era Living) conspired to harass or
threaten or deter (Exhibit D ) to impede the course
of justice in the Superior Court. See 42 U.S.C
1985(2)..

9

Much more, at the time Era Living and -their
counsel threatened to dismiss Mandawala's
complaint, the time for filing such motion was past
due with 9 days. The undeniable truth is that to
file an Advisory to the court does not extend the
time for responding of 20 days presenting the
defense under Washington state court civil rules
12(a).
Federally, it is prohibited for the defendant’s attorney
to make such contact with the plaintiff, and it is considered
intimidation and harassment that violates federal criminal
code 18 U.S.C §876 and §3521. see US v. Tison H. Claude ir.,
Marcelino Echevarria and Scan realty Service, inc.. 780
F.2d 1567 (11th cir. 1986)
Era Living intend to say their attorney’s action is part
of one party action, (intracorporation doctrine) to deny
attorney-client conspiracy to intimidate Mandawala
because the conduct is classified as criminal federally, and
its a felony or misdemeanor in many states to intimidation
or harassment court witness or litigant. See federal circut
court exempting conduct classified as criminal conspiracy
as a defense (intra-corporation).
First, Fifth, Six, Eighth and Nineth Eleventh Circuits
Federal Courts hold that any criminal or fraud conspiracy
whether raised by a prosecutor or an individual in section
1985 claim intracorporation doctrine defense is exempted or
does not apply McAndrews v. JA Blackwell Jr.. T.A.
Graham, et al.,177 F.3d 1310 (11th Cir. 1999) see 1st Circuit
in US v, Peters 732 F.2d 1004. 1007-08 (1st Cir, 1984). 5^
Circut in Dussouy v. Gulf Coast investment Corn,.660 F.2d
594, 603 (5th Cir. 1981) 6th circuit in US v. Ames Sintering
Co.. 927 F.2d 232. 236 (6th Cir. 1990) (quoting that “ ‘in the
criminal context a corporation may be convicted of
conspiracy with its offers’”) regardless who brought the
claim of that criminal conduct. See(US v. S Vee Cartage Co..
704 F.2d 914. 920 (6th Cir 1983) 8th circuit in US v. Hugh ,
Chalmers Chevrolet-Tovota. inc 800 F.2d 737. 738 (8th Cir.

10

1986) and 9th Circuit in US v. Hughes Aircraft Co., 20 F.3d
974. 978-79 (9th Cir. 1994)
Therefore, both the Trial court and the Appeals
Court harmonizing exhibit F the Harassment and
intimidation Mandawala is federally a criminal
conduct. It is an erroneous view that undermines
the purpose 42 U.S.C 1985(2) as it protects any
racial or class-based animus litigant in state
courts. (See especially the U.S 5th Circuit court in
Dussouy case where attorney conspired with their
corporation client) Moreover, since Mandawala
made an Advisory to the court about Era Living’s
attorneys out-of-court threat without court’s
advisory notification to do so. The trial court's view
on Appendix E at 28 undermined the purpose and
spirit of section 1982(2), which is to “protect civil
rights litigants and witness” seeking civil right
justice in state court like what Mandawala did.
Era Living demands were not really in good
faith considering the 124 days of filing Appendix D
insufficient service of process defense instead of 20
days as the trial court reasoning on Appedix E page
28 and the Appeals court held it as appropriate an
error of judicial view. It is why this court should
clarify if attorney-client conspiracy can be the
factor for the attorney to act contrary to the state
law for intracorporation activities defense or
attorney-client relationship defense. Considering
the section 1985(2) conspire for the purpose of
impeding, obstructing, hindering the course of
justice as all are criminally classified under 18
U.S.C. 3521. The state lower court decisions
allowing the corporate defendants to intimidate the
plaintiff in the name of courteous or free legal help
is not the purpose of the Equal Protection clause in
the 14th Amendment. Then there is no protection
for plaintiffs of civil rights cases in Washington

11

State courts as other state courts do provide it
without having jurisdiction. That will open the
door to undermine the similar state law RCW 49.60
and make it a worthless statute if its sister statute
of federal 42 U.S.C. 2000 will not be considered
wisely.
WASHINGTON STATE COURTS' VIEW OF THE COURT HAS THE
DISCRETION TO DENY PLAINTIFF A RIGHT TO AMEND THE
COMPLAINT, OR PROCESS EVEN WHEN THE DEFENDANTS DO
NOT FILE AN ANSWER. IT IS CONTRADICTING ALMOST ALL
FEDERAL CIRCUIT COURT RULINGS ON THE SIMILAR MATTER
AND TO THEIR OWN WASHINGTON STATE SUPERIOR RULE 4 (h).

When this issue comes up to the US Eleventh
circuit court of appeals after the US district court
judge dismisses the lawsuit for reasons that
Insufficient services of process, the US 11th
appeal court looked at the service of process and
pleadings. See Williams v. Board of Regents of
University System of Georgia. 477 F.3d 1282.
1292 (11th Cir. 2007) The US 11th circuit held
that when a plaintiff file a complaint in district
(trial) court with pleading in it, those pleadings
need the defendant's responsive pleadings for the
court to balance the case facts' merit.
The US 11th circuit court found when the
defendant does not file a responsive pleading that
challenges the complaint's pleadings, The district
court lacks the
discretion to
deny any
amendment of the complaint. Because whatever
plaintiff amended is what the defendant will
respond to and denying the plaintiff such
amendment is an abuse of court discretion as it
looks, the court has judged the plaintiff without
the defendant's side of the story. “When the
plaintiff has the right (before responsive pleading
filed) to file an amended complaint as a matter of
course, the court lacks the discretion to reject the

12

amendment. See Thornes v. Home Penot USA
Inc. No. C06-027Q5 (N.D. Cal. Jul. 25. 2007)
(emphasis added) quoting See. Williams. 477
F.3d 1282. 1292 at n,6Jd
In Mandawala's case, the trial judge
acknowledged that there were defects; the trial
judge raised the question if the court has the
discretion to allow Mandawala to amend the
process, (see Appendix E ) The same amendment
process Era Living attorney was demanding
Mandawala without a court order. (See Appendix
D)
By applying the US 11th circuit court
opinion, the trial court lacks the discretion to
deny the plaintiff of any amendment when the
defendant does not file responsive pleading
(Answer). It makes that Judge Iveen did luck
discretion to deny Mandawala anamendment
because Era living did not file responsive
pleading (answer). Instead, the court had the
Wash.St.Sup.Court.Rulel2(b)5 motion to dismiss
filed by Era Living based on insufficient of service
of process. Motion to dismiss is not a responsive
pleading as defined in Wash.St.Sup.Court.Rule7,
similar to Fed.R.Cv.P 7.
The Majority of the federal courts have held
that (“Motion to dismiss is not a responsive
pleading”) Me Gruder v. Phelp, 608 F.2d 1023. 1025 (5th
Cir. 1979). (Motion to dismiss not responsive
pleading for the purpose of Fed.R.Civ.P 15);
Hanratv v. Ostertag. 470 F.2d 1096. 1097(l0th
Cir. 1972) Miller v. American Exnort Lines, inc..
313 F.2d 218 n.l(2d Cir. 1963) (Motio for
Summary judgment not responsive pleading for
purpose of Fed.R.Civ.P 8).
This is also the views of Federal Circuit
Court of their territory the 9th federal circuit

13

court. A Motion to Dismiss the complaint is not a
responsive pleading. Allen v. Veterans Admin
749 F.2d 1386. 1388 (9th Cir 1984) and (Rule
12(b)6 motion to dismiss not a responsive
pleading) see Mayes v. Leinziger, 729 F.2d 605.
607 (9th Cir 1984)
The Federal Appeals court of the 9th circuit
in Allen’s case concluded that even the district
court dismiss the case still the plaintiff had the
right to amend. This is exactly with Mandawala’s
case, where the trial court did not allow
Mandawala a single amendment despite no
answer from Era Living up to day. Makes it
ununiform judicial system.
Considering that if the defendant doesn’t file
a responsive pleading, a plaintiff as a matter of
right has one chance to amend either the process
or the complaint. The question could have been
gone to Era Living to demonstrate if any legal
injury could have occurred to them if Mandawala
did amend the process, in which the answer is
NOT at ALL since there is no answer per
Wash.St.Sup.Court.R 4(h) last clause.
*It does not require a university professor of
language to differentiate the language in rule 4h
of "Process" and "the documents used to that
process." Moreover, the word "any process"
*Wash. Sup.C.R4(h) Amendment of Process; "At any time
in its discretion and upon such terms as it deems just, the
court may allow any process or proof of service thereof to be
amended, unless it clearly appears that material prejudice
would result to the substantial rights of the party against
whom the process issued."

14

cannot change to one process of amending
summon only as Affidavit A says.The word "any"
means "whatever, more than one, other processes
." that means "whatever process"
the court has the discretion to order an
amendment."unless it clearly appears that
material prejudice would result to the substantial
right of the party against whom the process
issued." see Wash.St.Sup.Court.R4h last clause.
Appeals court saying in Appendix B at 9 and
10 says the "writ" means "summon" only. But
"writ" in that meaning is all court's orders
including
Subpenors,
writ
of Prohibition,
extraordinary writ, writ of mandamus, order to
show the cause, and summons.
The issue here is simply no need to go round
the cage of truth; if the defendant does not file an
answer, the court has no power to deny an
amendment.
Much
more
Appendix
E
demonstrate that mandawala was asking the
court to amend under Wash.St.Sup.Court.R4(h)
not what court of appeals referred to in Exhibit A
of Wash.St.Sup.Court.R15(a) even a summon can
be amended as long as the respondent does not
officially respond to the original one.
The Washington state appeals court should
not encroach the words of the rule to favor Era
Living for being a corporation as such means
judicial bias and setting the Washington state
court rules as previlage to corporation and not
other litigats.

15

THE WASHINGTON STATE COURT RULES ARE PRIVILEGE,
EXEMPTING, OR NOT APPLY TO SOME CORPORATE
DEFENDANTS SUCH AS ERA LIVING LLC, AND ALLOWED
UNTIMELY OF FILING MOTION TO DISMISS DESPITE
WASHINGTON STATE COURT SUPERIOR COURT RULE 12 HAS A
20 DAY TIME LIMIT?(ALLOWING WAIT THEN AMBUSH)

*

V

•*>

The issue here is a narrow one because a
lawsuit does not commence if a plaintiff served an
improper defendant. This is a different situation
to services of a process that is insufficient in
documents to the proper defendant. In a case
where the improper defendant has been served
the time of raising insufficient of service tolled
until the day such service has arrived at the
proper
defendant,
that
is
when
the
**Wash.St.Sup.Court.R12(a) time starts running
out on that proper defendant. Here, in this case,
the proper defendant (Era Living LLC) was
served a complaint that was filed in superior
court immediately acknowledged that there was a
defense of shortage of documents (insufficient of
service of process) but allowing the timeline of
raising this defense of insufficient of the service
process of 20 days
(see Washington state's
Superior Court Rulel2(a))to run out up top 124
**Wash.Sup.C.R.12 DEFENSES AND OBJECTIONS (a) When
Presented. A defendant shall serve an answer within the following
periods' (l) Within 20 days, exclusive of the day of service, after the
service of the summons and complaint upon the defendant pursuant to
rule 4;
***Wash.Sup.C.R. 12(b) How Presented... Every defense, in law or
fact, to a claim for relief in any pleading, whether a claim, counterclaim,
cross claim, or third party claim, shall be asserted in the responsive
pleading thereto if one is required, except that the following defenses
may at the option of the pleader be made by motion: (l) lack of
jurisdiction over the subject matter, (2) lack of jurisdiction over the
person, (3) improper venue, (4) insufficiency of process, (5) insufficiency
of service of process, (6) failure to state a claim upon which relief can be
granted,

16

days ,and then claiming the same way as an
improper defendant? (see Exhibit C & F ) see
Sinwell v. Shapp. 536 F.2d 15 (3d Cir
.1976) (improper for
the court
to
dismiss
[complaint] waived by lack of timely assertion)
A proper defendant makes an appearance to
the court does not constitute a waiver of the
defense of insufficient service of process. But
proper defendant untimely or unseasonably filling
insufficient service of process defense (without a
cause) after making such appearance constitute
waived a defense of insufficient service of process.
See Santos v. State Farm Fire and Cas. Co. 902
F.2d 1092 (2d Cir. 1990) if raised such defense of
insufficient services of process untimely or
unseasonably or with conducts contrary to related
claimed or defense by the defendant clearly satisfy
the waiver of such defense.
If any proper defendant is served and waits
whatever period they would like to raise the
defense of insufficient service as the same as an
improper defendant or no service at all party does,
it will be proper for the Washington state supreme
court to remove the insufficient of service from
Wash. Sup.CRl2(b). Because of Wash.Sup.CR12(b)
defenses
governed
by
the
timeline
in
Wash.Sup.CR12(a).
In Federal circuit courts handling the defense
of insufficient of service of process, they held that
“defendants must not only comply with the letter of
the rule only, but also “with spirit of the rule,
which is ‘to expedite and simplify proceedings in
the ***court.” id (quoting 5A Charles A. Wright &
Arthur R. Miller, Federal Practice and Procedure §
1342 (2d ed. 1990)) see also US v. Ziegler Bolt &

17

«

Parts Co.. Ill F.3d 878. 882 (Fed.Cir.1997)
(holding that a defendant’s literal compliance with
the procedural rule does not end the waiver
analysis)
The 8th Federal Circuit Court went further
with a very clear about dangling around with time
and conducts of the defendants who claims defense
of insufficient of service or personal jurisdiction.
“Failure to assert it seasonably, by formal
submission in a cause, or by submission through
conduct.” See Yeldell v, Tutt, 913 F.2d 533. 539 (8th
Cir.
1990)
see also other federal Circuit
(insufficient service of process defense ‘may be waived by
‘formal submission in a cause or by submission through
conduct”) Trustee of central laborers’ Welfare fund v. lowerv
924 F.2d 731. 732 (7th Cir 1991) Quoting Marcial Ucin, S.A.
v. SS Galicia. 723 F.2d 994,996-97 (1st Cir 1983)
The 5th Circuit U.S Court of Appeals sorts the
delay “without cause” as “sleeping on right” no
court has discretion to entertain that delay as it
costs the court and is unfair to the party whom
such delay is issued. “However, equitable consideration
or tolling time is only available in cases presenting "rare
and exceptional circumstances" U.S. v. Riggs. 314 F.3d 796.
799 (5th Cir 2013) (emphasis added) and this is "not
intended for those who sleep on their rights" Manning v.
Eons. 688 F.3d 177. 183 (5th Cir 2012)
Dismissing a complaint under the insufficient
service process should be interpreted unless there
is an absence of service and absent of showing a
good cause why there is no service at all. see
Norlock v. City of Garland. 768 F.2d 654. 658 (5th
Cir. 1985) This does not support Era Living delay
up 124 days “without a cause” to raising
insufficiency of service of process from the date of
appearance or mail return receipt. Norlock Id at

18

Era Living cannot raise any cause at this level of
appeal if it failed to raise it at the Trial Court.
Much more defense attorney demanding
(Appendix D) anything merit to the case from the
plaintiff without a court order is prohibited
federally and considered intimidation to the court
witness. See US v. Tison H. Claude ir.. Marcelino
Echevarria and Scan realty Service, inc.. 780 F.2d 1567
(11th cir. 1986) (applied Federal criminal code 18 U.S.C
3523, 3525 to defense attorney seek information to the
opposition party without court order)
This Court should take this opportunity to prowide
the guidance the Washington state courts and clarify what
the United State Constitution requires on federal laws
applied in state to avoid abinguas results neither it nor
Congress could have intended.
CONCLUSION
This Court should grant certiorari.
Respectfully submitted,

Symon Mandawala
P.O. Box 5512
San Antoni, TX 78201
(207) 631-5636
Petitioner Pro-se

